No. 20-6518

 

———— eS

IN THE SUPREME COURT OF THE UNITED STATES

BLAINE MILAM,
Petitioner,
¥s
STATE OF TEXAS,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE COURT OF CRIMINAL APPEALS OF TEXAS

PROOF OF SERVICE

On November 23, 2020, I contacted Tomee Heining, counsel of record for
respondent in this case who agreed to receive electronic service of filings in this
matter. I certify that on January 4, 2021, I served the enclosed REPLY IN SUPPORT
OF PETITION FOR A WRIT OF CERTIORARI and associated appendices via email
to Tomee Heining, Assistant Attorney General/Assistant County Attorney, Post
Office Box 12548, Capitol Station, Austin, Texas 78711,
tomee.heining@oag.texas.gov. I am a member of the Bar of this Court.

Respectfully submitted,

  

Jeinae R. Swiergula
Texas Defender Service

1023 Springdale Rd. #14E
Austin, TX 78721
512-320-8300

512-477-2153 (fax)
jswiergula@texasdefender.org
